"'-




      0eparment of Health and Human Services

                                   OFFICE OF

         INSPECTOR GENERAL





        ADOLESCENT                          STE.   ROID       USE




                           f.tlVICES'



                                        Richard P. Kusserow


                          Jr
                                        INSPECTOR GENERAL

                     1-
                                           FEBRUARY 1991
                          lt"d3a
Deparment of Health and Human Services

               OFFCE OF

   INSPECTOR GENERAL





   ADOLESCENT STEROID USE





          f.tlV'(,t$.


                        Richard P. Kusserow
                        INSPECTOR GENERA
                           OEI- 06-90- 01080
          "dia
                     EXECUTIVE SUMMARY

 PURPOSE

 To describe the non-medcal. use of steroids by adolescents and to suggest appropriate education
 or intervention strategies as well as aras neeg furter research.


 BACKGROUND

. Anabolic-androgenic steroids (" steroids ) are synthetic derivatives of the natial male hOrmone
  testOsterone. Most who use steroids for non-medcal reasons want to maimize the anabolic
  (growth) propertes in order to improve their muscularty, strngth, appearce, and/or capacity
 to trai. Steroids do not   produce an immedate euphoria at the tie of use. Steroids are
 administered either oraly or by injection. Many users tae more than one steroid at a      tie
 (stacking) for several months (cycles) and usually in dosages that gratly excee the therapeutic
 amounts.

 Steroid possession and distrbution for non-medcal puroses are ilegal under Federa law.
 Since the 1950' s world class and professional athetes have used steroids to enhance their
performce, but more recently evidence has shown high school, and even junior high school
students also use steroids. At the same time researchers ar   discovering the   potential for serious
health risks associated with steroid use.

This i spection focuses on non-medical steroid use by adolescents accordng to the National
Institute on Drug Abuse (NA), professional literatu, 30 key inormants knowledgeable in
steroid issues, and 72 curnt or former steroid users. Findigs from our companon study on
adolescent steroid users ar avaiable in a separte repon entitled "Adolescents and Steroids: A
User Perspective, " OEI 06- 90- 01081.


FINDINGS

Over One-Quarter Million Adolescents, Primtriy      Mals, Use Or     Have Used Steroids, And
Their Numbers Are Growing.

The NIDA reponed 3 percent of the Class of 1989 (4. 7% maes and 1.3% females) had used
steroids in their lifetie. Other smaler studies show higher rates for males. Our key informants
agree that 5 to 11 percent is an accurate range of male use, but they also say the usage rates are
mcreasmg.
Adolescent Steroid Use Starts Early And Often Follows A Prolonged, Intense Pattern.

 The data also show that over hal the adolescents who use steroids have tred them for the fIrst
 time by age 16. The majority of our sample ar " heavy " users who incrased steroid dosages,
 variety, and cycle length over time.

Adolescent Steroid Use Is Motivated By Socially Acceptable Values And Life-Stage Concerns
With Appearance And Peer Approval.

Key informants say steroid users, in general, ar highly motivated people who   tr  intensely to
improve themselves or to achieve a positive goal and who believe they are health conscious.
Adolescents, typically very concerned about their appearance and peer approval, use steroids
primary to improve athletic performance and appearance. Key informants and users believe
that steroids work to produce the physical effects adolescents desire. Furermore, adults and
famous role models inditly reinforce adolescent steroid use; non-using peers don t discourage
use.


Adolescents Are At Special Risk For   Some Adverse Result Of Steroid Use.

Key informants believe adolescent users are more susceptible to the health risks of stuted
growth and adverse psychological effects including dependence. Data also suggest steroid use
encourages adolescents to tr other drgs for enhancing performance and counterig the side
effects of steroid use.




Although Much Remains Unknown, Experts Link Steroid Use To Serious Psychological And
Physical Health Risks. 

Prolonged use of steroids concerns our key informants because of what they do and do not know
about their effects. Most prect that, if an adolescent uses steroids for one six-week cycle. he
wil go on to heavy use that could possibly last for year. Intact, may of our users self-repon
addictive thinng or behavior. The key informants li many adverse physical and
psychological effects to steroid use.

Experts Recommend Educaton Of Adolescents And Adults As The Best Solution To The
Steroid Use Problem.

Expens do not believe adolescents ar well awar of the potenti risks of steroid use nor is
awareness a deterrent to use. Our key infonnants say, neverteless. education is the most
effective means of deterrg use. Honest. early. repeated and clear messages concerng steroid
use to adolescents and responsible adults wil improve steroid education progrs.




                                               . ii
Testing And Controlled Substance Status Are Potential Deterrents To Non-Medical Steroid
Use.

Many key informants suppon drg testing as a deterrnt   to adolescent     steroid use, but the cost is
a serious drwback. Some object to testing for legal or philosophical reasons. Limiting the
black market supply could help contrl steroid use. Makng steroids a controlled substace is
seen as beneficial, but perhaps not the only enforcement effon needed.


RECOMMENDATIONS

Develop A National Steroid Education Strategy.

The Deparent should develop a national education strategy to increase adult and adolescent
awareness of the problem and to provide educational guidelines for local progrs. An effective
progr involves more than merely presentig informtion about the effects of steroids. The
message for adolescents must come early and be reinforced in an honest. consistent way from
their peers and responsible adults.

Conduct Further Medical And Scientific Research.

The Deparent, through the Public Health Service. should tae the Federal lead in expandig
our understading of the motivap.ons for and health risks of non-medcal steroid use as a basis
for informed policy decisions.


COMMENTS

We reeived   Deparnta comments on the dr         repon frm the Offce of the Assistat
Secretar for Planning and Evaluation (ASPE) and the Public Heath Servce (PHS). Both the
ASPE and the PHS generally agrd     with the repon.
                           ........................
                   ................ ...... .......... ........
                                                       .... ..........
                                                   ................    ............................
                                                               ..............
                                                                        ........ ..............
                                                                          .... ..........              ................
                                                                                                 ....................
                                                                                               ..........    ............
                                                                                  ...... ................................
                                                                       ....................    ..........................  ..............
                                                                                                                        ......
                                                                                                               ...... ........ ......................
                                                                                                                                ..........
                                                                                                                         ..........
                                                                                                                             ....
                                                                                                                              ......       ............
                                                                                                                                            ......
                                                                                                                                     ........ ....
                                                                                                                                     ..........
                                                                                                                                            ....
                                                                                                                                      ........          ....
                                                                                                                                                          .........
                                                                                                                                                    ..........
                                                                                                                                               ......  ..........
                                                                                                                                                    ........
                                                                                                                                                 ..........
                                                                                                                                                   ....  ....
                                                                                                                                                 ............    ....
                                                                                                                                                              .......




                               TABLE OF CONTENTS

 EXECUTIVE SUMMARY


 INTR 0 D U CTI 0 N ..............................................................................................................


        Purpose........................................................................................................................


        Back gronD d.......... ...... .................... 


        Met hod 0 logy............ .................... .... 
                              .................................. .... ......00.. 





FIND IN G S

        Over One-Quarter Millon Adolescents, Primarily Males, Use Or Have
        Used Steroids, And Their Numbers Are Growing........................................


        Adolescent Steroid Use Starts Early                                   And Often Follows A Prolonged,
        In tense Pa ttern ........ ...... 


        Adolescent Steroid Use Is Motivated By Socially Acceptable Values And
        Life- Stage Concerns With Appearance And Peer Approval .............................

        Adolescents Are At Special Risk For Some Adverse Results Of Steroid Use......

       Although Much Remains Unknown, Expert Link Steroid Use To Serious
       Psychological And. hysica1 Health Risks ................................................................

       Experts Recommend Education Of Adolescents And Adults As The

       Best Solution To The Steroid Use Problem .............................................................


       Testing And Cuntrolled Substance Status Are Potential Deterrents To

       Non - M edi cal Steroi d Use.... ........ ........ ................................ ...... .........Ot!... 


REC 0 MMEND A TI 0 NS .................................................................................................


       Develop A National Steroid Education Strategy..........................................


       Conduct Further Medical And Scientifc Research .....................................


CO MME NTS ............ ............ .......... .... ...... .......... ........ 


END NOTE S.. ....

BIB L lOG RAPH Y .... .......... ............ ........ .......... .......... .... .......... 

                                           ..............................................................................




APPENDIX A: Key Informant Interviews ...............................................................                          . 1



APPENDIX B: Steroid User Interviews....................................................................                       - 1



APPENDIX C: Steroid Incidence of Fir t:Use ................................................ C -


APPENDIX D: Estimate of Student Steroid Use by Grade............................ D -


APPENDIX E: Departmental Comments. ................................................................                           . 1



APPENDIX F: Public Comments                                                                                                 F - 1

                              INTRODUCTION

PURPOSE

To describe the non-medical use of steroids by adolescents and to suggest appropriate education
or intervention strategies as well as areas neeg furter research.


BACKGROUND

Anabolic-androgenic steroids (" steroids" )   ar synthetic derivatives of the natual   hormone
                                                                                       male
testosterone. The androgenic effects of testosterone ar incrased aggressiveness, the growth of
the male reproductive tract during adolescence, and the development of seconda male
characteristics such as increased body/facial hai. The anabolic effects ar the retention of
dietar protein and increased muscle mass. An effect durng pubert is the s       ulation of long
                                          l closure.
bone growth with subsequent epiphyseal                Although separting the androgenic and
anabolic effects is diffcult , most who use steroids for non-medcal reasons waIt to maximze the
anabolic propertes to improve their strngt, appearce, and/or capacity to         tr.Unlie
 recrational" drgs, such as cocaine, steroids do not produce an imedate euphoria at the time
of use.



Use in combinations and cycles

Steroids ar admnistere either orally or by injection. A common practice          f no!)-medical use is
to " stack" steroids, i.e., to combine severa steroids, usually at least one ora and one injectable,
in an effon to saturate receptors that can stimulate growt. Dosages often gratly excee the
usual therapeutic amounts and may include products intended for veteri           use;" Some users
 cycle " the drgs by takng them for 4 to 18 weeks, then discontinuig them for several months;
others tae steroids continuously.

Illegal activi   increases


                                for non-medcal purses is ilegal under Fedral law. The
Steroid possession and distrbution
Food and Drg     Admnistrtion (FA) has approved steroids as drgs which may be prescrbed
only by a licensed physician for specifc   puroses. Steroids have    lite approved uses, such as
the treatment of cenain anemias, breast cancer, male hypogonadsm , and delayed adolescence in
boys. Congress passed the Anti-Drug Abuse Act of 1988 which includes several provisions to
control the distrbution of steroids for non-medical purposes. For a limited time in 1989 the
Office of Inspector General (OIG) was delegated the authority to conduct investigations of
ilegal distrbution of steroids. In November 1990 steroids were added to Schedule II of the
Federa Controlled Substaces Act, makng steroid distrbution and possession          without a
prescription ilegal. 2




                                                 nal!e 1

The non-medcal use of steroids is not a new issue, but the user population seems to be
expanding. Beginning in the early 1950' s steroid use appear confIned to world class and
professional athletes, but more recently, steroid use has incrased signifIcantly among amateurs.
In December 1986, for example, 26 college football players, from at least 7 universities, were
bard from post-season bowl games after testing positive for steroids. Evidence has shown that
high school , and even junior high school , students also use steroids.

Serious health risks suggested

At the same time, researchers ar discovering the potential for serious health risks of steroid use.
No systematic studies of the health risks to athletes or body builders, who use steroids at higher
than therapeutic doses, have been conducted. Health risk data do exist, however, from medical
case studies and from a limited number of case repons on athletes.   Suggested side effects range
from acne or fluid retention to mood swings, tempora sterility, cardiovascular disease, and
liver disease. Some risks may be even grater for adolescent users because of their
developmenta stage. Since some steroids ar injected, researhers suggest an incidental health
effect of steroid use may be contrcting AIDS though the shared use of contanate needles.


METHODOLOGY

This inspection focuses on non-medcal steroid use by adolescents accordig to four major
sources: the National Institute on Drg Abuse (NA), professional and origial research
literature, interviews of 30 key informants knowledgeable in steroid issues, and interviews of 72
current or former steroid users. Since sci ntifIc inquir in the study area has been limted,
fIndings ar based on the compilation of the best available research information frm NIDA and
other professional sources and of anecdotal data we gathere from key informants and users.

Each year NIA sponsors a national high school senior surey (1). In 1989, for the      fit tie,
the surey included questions concerng non-medcal steroid use. We examed the            preliar
data on national steroid use as reported by the high school clas of 1989. We also completed a
content analysis of the reent literatue (se Bibliogrphy). This analysis examned
incidence/prevalence of steroid use, motivations for adolescent use, use patterns and trends,
health risks associate with steroids, and education/intervention strategies.

We collected data from 30 well-known key informants by using in- depth, strctured interviews.
We selecte these respondents based on their promience in professional or research literature
(16 had wrttn material we used for our content analysis), their professional afliations, or
recommendations by other key informants. Their aras of expertse ar medcine, education
substace abuse , drg testing, spons, and/or coaching (see Appendi A for a complete listing).
They have been involved with the steroid issue in some way for 8 years, on average.
Twenty-seven have personal contact with current or former steroid users in varous age groups
and levels of athletic competition.

We also collected detaied data on use patterns and motivations from 72 steroid users (55 current
and 17 former). We contrcted with three key informants to complete confidential, in- depth


                                                  e2
interviews using our instrment (see Appendix A). The curent or former users, selecte
judgmentaly by the interviewers, met three crteria: 1) age 25 or younger at the time of the
interview, 2) initiated steroid use in high school or younger, and 3) completed at least one steroid
cycle of 6 weeks or longer (see Appendix B). Detaled fIndings from these interviews are
presented in a separte repon entitled " Adolescents and Steroids: A User Perspective, " OEI
06-90- 01081.




                                               na!!e 3

                                      FINDINGS

Over One-Quarter Milion Adolescents, Primarily Males, Use Or Have Used Steroids, And
Their Numbers Are Growing.

      Mounting evidence indicates signifcant numbers of adolescents use steroids.

The NIDA survey, the only national data base in this study area, reported 3 percent of the Class
of 1989 had used steroids in their lifetime. Three earlier studies of high school students, not
nationaly representative, showed similar rates ranging from 3 percent to 5. 7 percent (see Table 1
on page 4). In 1988, Willam E. Buckley et al. reponed 6. 6 percent of    male high school seniors
use or had used steroids in their lifetime (2).

Using the NIDA lifetime incidence of 3 percent, we can estiate that 83,430 students from the
Class of 1989 used steroids at some time.
                                          3 Furer, we calculate approximately 262 000
students in grades 7 to 12 in 1989 used or had used steroids. Buckley et al., at a 6. 6 percent
incidence for males, estimated 2?0, 000 to 500, 000 male adolescents in secondar schools
probably use or have used steroids.

Some key infonnants suggest, however, these rates may be unden-eponed. The NIDA data, for
example, do not include information from school drop-outs. Dr. Charles Yesalis, a steroid
researcher, said that the secrecy involved in steroid use is so great that it must be a
methodological consideration when designing steroid studies (3).

      Usage rates are much higher for adolescent mals thanfemaIes.

The NIDAdata show, as do
other studies, that adolescent                                   TABLE 1
males use steroids at a                          Summary of Steroid Usage Data
higher rate than adolescent
females. The rage is 4.          STUDY                             GRADE       TOTAL      MALE FEMALE
percent to 11. 1 percent for
males and only 0. 5 percent      NIA - 1990                                                          1.3
to 2. 5 percent for females
                                 Buckley et aI. - 1988
(see Table 1). Two- thirds of
                                 Johnson et aI. - 1989                                    11.
the key informants agree 5
percent to 11 percent of high    WindsorlDumitr - 1989               9 - 12                          1.4

school males have used           Temey/McLan - 1990                  9 - 12      4.4
steroids. No one thought         * Percent of adolescents who use or have used steroids
this range was " very high"
Other studies show that
male users are usually
athletes with 65 to 84 percent parcipating in spons (4). Ninety-six percent of our         users   were in
a competitive spon or weight-trining program at the tie they began steroid use.


                                                  page 4
" , 





         Adolescent steroid use is growing according to key informants and users.

    Overall , both key informts (67%) and users (93%) believe steroid use is increasing among
    senior high school students. Supportng evidence com s from Portand, Oregon where
   researhers evaluated high school varsity football players over the thee academic years of 1987
   to 1989. In that brief time, the percentage of self-reponed steroid use more than trpled, rising
   from 1.1 percent to 3. 8 percent (5). Key informants (60%) and users (57%) also believe use is
   rising among junior high school students although both groups ar less sure of the use trend for
   younger students. Inclusion of steroid use questions in subsequent annual NIDA high school
   senior surveys wil yield trend data for both junior and senior high school students.


    Adolescent Steroid Use Starts Early      And Often Follows A Prolonged, Intense Pattern.

         First use occurs by age   16   for over half the   adlescents who try steroids.

   Many adolescents, who use steroids, have tred them for the fIrst tie by age 16. Fifty- the
   percent of our user sample repon they had staed at age 16 or younger; 85 percent had staed by"
   age 17. NIA reponed that 56 percent of the male users fit tred steroids by 10th gmde (age
   15 to 16) or younger (see Appendi C). Another 22 percent had staed use by 11th grde (age
   16 to 17) for a cumulative rate of 78 percent. The female incidence of fIst use follows the same
   pattern. The Buckley et al. data for males trcks our user data and NIA' s and shows 71.3
   percent stared by age 16.



         Adolescents appear at riskfor heavy, prolonged use.

   Twenty-six key informants (87%) predct that an adolescent user who completes one 6-week
   steroid cycle is likely to go on to use for 5 cycles or more. Five cycles is a signifcant number
    because for some researchers it marks the beging of "heavy " steroid use (6). Furer, once
    users crss the 5-cycle mark, many key informants believe they wil contiue use for years ­
    afterwards.

   Most users in our sample ar " heavy " users accordig to ths researh definition. Six.ty.;five
                                                                                            5 Their
   percent of users repon they have taen steroids for fIve cycles or more in their lifetie.
   lifetime average is eight cycles. The average length of their last completed cycle is 11 weeks.
   Curnt users sta tag steroids 3 years ago on average; 35 percent have used steroids for 4
   years or longer. Eighty-six percent have no definite plans to stop using.

         Many users increase steroid dosages, variety and cycle length over time.

    Most of our users also say they progressively intensifed their steroid use. Over time they used
    larger dosages (89%), increased the number of different steroids per cycle (72%), lengthened
    their cycles of use (64%) and shonened the time between cycles (65%). Other signs of their
    intense steroid use ar: 1) steroid doses gratly exceed the norm therapeutic levels, 2) 99



                                                     n31!e 5
                                                                                                      ...   .,




  percent of the users inject steroids, and 3) users combine an average of 5 different steroids in one

  cycle.



  Adolescent Steroid Use Is Motivated By Socially Acceptable Values And Life- Stage
  Concerns With Appearance And Peer Approval. 


  Key informants perceive that steroid use, in genera, is uniquely motivate by values society
  normally considers " goo" . They think adolescents may be more vulnerable to steroid use
  because of these societa values and their own strong concerns about appearce and peer
  approval. Although the percentage of adolescents who use or have used steroids is low
  compard to some other drgs,
                                 6 nearly two- thirds of the key informts still   ra
                                                                                   non-megical
  steroid use as a major (27%) or moderate (37%) problem precisely because these values and

  concerns lead adolescents to steroid use.


        Steroid users have more positive motivatons than other drug users.

  Twenty-tWo of 29 key informants charcterize steroid use as a unique substace       abuse problem.
- . They describe steroid users, in general, as highly motivated people who are  trg  to improve
    themselves or to achieve a positive goal. They want to be better athetes, even champions; they
    want to look bettr. Steroid users believe that they tae car of their bodes and that they are
    health conscious.

  Unlike other drg users, who frequently have negative or no goals, steroid users do not seek to
  escape reality or to attn instat gratifIcation. In fact, steroids do not produce an immedate

  euphortadt the time of use. Athletes and appearance conscious individuals know they must trRc.

  intensely to reach their goals, and they ar wiling to mae that effon. They see steroids as a

  way to" i1ppioach their goal faster or to attn an even higher level of performance. If there isa
              '"C


  negative motivation underlying steroid u se, it is " an over-reliance on physical attbutes for

  obtaining a sense of self-wort. " (7)



        Adolescent concerns with appearance and peer approval motivate their steroid use.

  For adolescent males, muscularty and strngt are tWo key ingrents of their perceived

  success and favorable self-esteem. Appearance is also an importt factor. The users, key

  informants and literature all say the desire to do well in sport, or its varations of increasing

  strengt, size and spee, lead adolescents to steroid use. Al the key inormants and nearly

  two- thirds of the users also repon improving appearce as a reason for stang steroid use.

  Matching perceived use by competitors was also mentioned often by both groups. However,

  while all the key informants say moneta rewars, such as scholarhips, ar a motivation to use

  steroids, only 24 percent of the users repon this reason. More compellng to them is the desire to

  be happier or like themselves better (53%).


  Peer group involvement is very imponant during adolescence. In fact, peers are listed the most

  frequently by our key informants as the key influence on adolescents to use steroids. The users




                                                  page 6
strongly   agr saying they were influenced to begin steroid use priary      by frends or athletes at
the gym where they work out (53%) and by school frends (40%). In most cases, the frend was
a user who had achieved the results that our respondent desired. Furter, non-parcipating peers
don t discourage use. Seventy- three percent of our users     agr with the statement, " My friends,
who don t use steroids, don t car if I use.

      Steroids work, producing physical and other effects that adolescents desire.

Almost all of our key informants believe that steroids do produce the effects adolescents
perceive as benefIcial. In combination with a proper regimen of traiing and nutrtion, they say
steroids are effective for incrasing muscle mass (97%), strength (97%) and traiing capacity
(93%). Most also believe steroids and a proper regimen increase spee (67%) and enhance
sexual capacity or enjoyment, at least initially (57%). They agree steroids do not increase
cardiovascular endurance (60%) or prevent injuries (80%). In addition, the American College of
Spons Medicine, which does not advocate steroid use, offcialy concedes that concurent use of
steroids with proper training and diet may enhance performce.

Currnt and former    users strongly agr that steroids work. Sixty- four users (89%) report they
got the results they hoped for when they staed using and noxe they "realy improved
physically. " They cite large, measurble gains in weight, muscle mas and definition, strengt
and athletic accomplishments. Among users who achieved the desir results, 97 percent agre
that the physical effects encouraged them to continue using steroids. Improved appearance and
increased sexual drve, prowess or pleasure are examples of unexpecte benefits mentioned by
43 percent of users. Although former users are less enthusiastic, most curent users believe the
emotional and social benefits of physical improvement are gettng along better with others,
greater satisfaction with life and being liked better by their pe. rs;- ,

      Adults andfamous role models also        reinforce ster i4 U$e;



Key informants also believe responsible adults, in addition to peers, inuence steroid use. They
list parents, coaches/trers, successful athletes or entertptpersonalties that act as role
models, and society in genera as sources of influence or pres ure for an adolescent. They say
that, whether intentional or not, parnts and coaches place grat pressur on young people to
compete and wi, while sendig a mixed message of what are acceptable ways to accomplish
that goal. At other times the message is clear that using steroids to enhance performance is
acceptable when our society prases winning, accords athletes special tratment, and overlooks
their transgressions.

The users ' responses indicate that adults indictly encourage adolescent steroid use by sending
mixed messages. Fifty-fIve percent agre with the statement "My parnts probably know I use
(or used) steroids, " although 93 percent also agree that "My parnts believe gettng good grades
is more imponant than winning at sport. " Only 59 percent say goo grdes are more imponant
than winning at their schools. Of the 41 users who have coaches, 61 percent        disagree with the

statement, " My coaches    really believe that steroid use is a bad idea. " However, our users seldom
associate adults they know personally with motivation to begin steroid use: non-school



                                                  page 7
coach/trner (15%),   school coach/trainer (6%), personal doctor (6%). No one repons parents as
a motivation.

Famous role models also influence adolescents. The users believe that may high- level athletes
have used steroids, and 42 percent say this influenced them to sta using. Fifty-seven percent
pointed to " muscle magaznes " and seven percent to entenanment personalties as source
influence.

A researcher/physician aptly summazes the interplay of societa influences and values on a
potential adolescent steroid user. 


            Young males with a tendency towards high     risk behaviors, for whom
            physical attributes have a high personal value, ma be at most riskfor
            initial use. Social influences from peers, coaches, trainers and family
            as well as prevailng cultural values to compete, to win, to look
            good, and to be big and powerfl probably also contribute to initial
            use. (7)


Adolescents Are At Special Risk For Some Adverse Results Of Steroid Use.

      Key informants believe adlescent users are more susceptible to some health effects.

Twenty-seven of 30 key informants believe that adolescents who tae steroids, as opposed to
adults, ar at special risk for adverse results. Twenty say they are most worred about stunted
growth and adverse psychological effects including dependence. dolescent steroid use may
hinder long bone growth and the subsequent epiphyseal closure at pubeny. Furer, the
developing adolescent may be especially vulnerable to the psychological effects of steroids, such
as the possible drg- induced moo changes (8). Our key inormts ar also concerned
generaly about the potential for serious health risks of steroid use which we discuss in detal
beginning on page 9.

      Steroid use encourages adolescents to tr   other drugs.


The key informants and literatu suggest      steroid use leads adolescent users to other drugs.
Twenty- thee of 30 key informants believe that other drgs taken to enhance performce
(human growth hormone, amphetanes, eryopoietin) also have the same abuse potential as
steroids, assuming cost and availabilty are not prohibitive. Nearly hal of our key informants
think it is liely that adolescents can also obtain marjuana and cocaie from their steroid source.
In addition, handbooks available to adolescents suggest ways to counter the side effects of
steroid use with other drgs often available on the black market, e. g., estrogen inhibitors for
gynecomastia, diuretics for fluid retention , human chorionic gonadotropin (HCG) to stimulate
natura testosterone production (8).




                                              page 8
                             , "





Our userdata suppon the key informants and the literature. Fort-four percent of the users
consult a user s handbook for steroid information, apparntly the same handbook that discusses
countering the side effects of steroids. Afterstag   steroids, 49 percent of the users staed
other drgs for peIformance enhancement or for counterig the side effects of steroid use.
Expressed as a percentage of all sampled users, they added estrogen inhibitors (31 %), HCG
(22%), diuretics (17%), " uppers " including amphetanes (17%), pain-killers (15%) and
recreational drgs other than alcohol (11 %).

Before stang steroids, nearly two-thirds of the users repon drg use, but of a diferent type.
They used alcohol (65%), marjuana (26%) and nicotie (14%). A few mention " uppers " (4. 2%)
and pain- killers (1.4%). None repon use of diuretics, estrogen inhibitors or HCG.


Although Much Remains Unknown, Experts Link Steroid Use To Serious Psychological
And Physical Health Risks.

      Key informants emphasize they do not understand enough about the effects of steroid
      use.

Sixty- fIve percent of our key informts feel that expen understadig of the shon-term effects
of steroid use is " goo" or " very good." On the other hand, 96 percent say expen understading
of the long-term effects of steroid use is " fai" to " very poor. " Many strongly favor fuer
systematic medcal research of steroid effects as an underping for well-conceived educational
progrs and futue legislation to control steroid distrbution and use. A common sentiment of
researchers and physicians is It would be a waste of money to put more effon into seeing if
steroids work. We need other knowledge (about shon- and long-term) effects urgently. " (3)

We asked our physician/rescariTer group whether, in their professional opinon, short-term
steroid use (less than one year) or long-term use is lied either strngly, weaky or not at all to a
wide varety of adverse heath effects. Many perceive      lis but carfuly qualify their answers
overal or by each health effect being rated A summa statement from other researh that well
describes their qualifcations also is,

            The preserzce and magnitude of anaolic or androgenic effects and
            complications of steroid use depend on the specifc drugs taken, the size
            and frequency of doses, the duration of use, the route of administration,
            and the age and health of the user.   Individual responses to diferent
            steroids vary. Acute, life threatening side effects are exceedingly rare.
            Long-term deleterious effects are unknown. (8)

      The risk of steroid addiction is of partcular   concern for adolescent   users.

Addiction to a substance can be a psychological and/or phy ical dependence. Many key
informants believe adolescents who use steroids ar at a special risk for adverse psychological
effects. In fact, the physician/researcher group, when rankig the health risks of steroid use



                                               page 9
repon, in their judgment, a strong link, for shon-term and long-term use, between steroid use and
psychological dependence. To date, researh has not shown a link between steroid use and
physical dependence, but may key informants frm the physician/researcher group believe
physical dependence is a potential effect. Although not yet conclusive by the stadads of
scientifIc research, in our opinion, suffcient evidence does exist in literatur to rase the serious
possibilty that steroids ar addictive.

Buckley et al. describe the intensity and pattrn of steroid use by 226 adolescent males (2).
Thiry-eight percent fIst used steroids at age 15 or younger; another 33 percent had staed by
age 16. Fony percent of the users reponed 5 cycles or more of use. Fort-four percent took
more than one steroid at a time; 38 percent used both ora and injectable forms of steroids. They
commented, "When one considers (this data), it is clear that the potential for the development of
long-term use patterns is real.

To develop the dependence issue, Dr. Charles Yesalis, a principal investigator of the Buckley et
al. research team, funher analyze the surey data (6). One- quaner of the 226 self-reponed
users, when faced with health risk scenaros related to steroid use, state their intentions to
continue use regardless of die health consequences such as permanent sterity, hean attcks or
liver disease. He al so noted their use of injectable steroids indicated " an increased level of
commitment. " Sixty- thre percent of the early initiators reponed 5 cycles or more and were
more likely to exhibit symptoms consistent with habituation: unwilngness to stop use,
perceptions of benefIts of use, rationaliztion of use and overlooking of health risks.

Psychiatrst Kik Brower has also studied the issue of steroid addction. He believes that the
adolescent users in the Yesals analysis above show evidence of addctive
                                                           possibly
                                                                           thg
                                                                    dependent (7).
                                                                                    and that up to
                                                                                   In another
25 percent of adolescent steroid users - at a given tie ar
work Brower et al. interviewed 45 weightlfters who admtted steroid use for a mean of 26
months (including time between cy,; es) and with a mean of 2. 8 dierent steroids at one tie,
exceeding therapeutic doses (9). A self- adnistere questionnai elicite informtion
standard symptoms of dependence.
                                  8 At least one dependent symptom was reponed by 93
percent Thee or more symptoms, consistent with a diagnosis of chemical dependency, were
reponed by 58 percent.

      Many steroid' users in our sample exhibit adctive thinking or behavior.

By applyig the addiction crteria from the literature to our self-reponed user data, we find
evidence of addictive thinking and behavior. As we have seen, their use patterns are long and
intense, i.e., 65 percent have used for 5 cycles or more, 86 percent tae 3 or more steroids at a
time, 91 percent use both ora and injectable steroids. Funermore, quittng steroid use does not
appear likely for many current users: most have no definite plans to stop using steroids (86%),
many would not stop even if others do (78%), and they wouldn' t stop use even if they were
convinced steroids are really bad for their health (38%). One- quaner of curnt users tred to
quit but couldn' t (9%), quit use completely for a while but stard again (22%) or did both.
Funher, nearly all say starng steroid use was a goo decision (93%) which they would repeat if
they had to decide again (87%).
                                              page 10

 The users also seem to over- look or rationalize the effects of steroid use. Fifty-three percent say
 they got along better with others while using steroids, but the same users also say they had more
 arguments or physical fIghts. Twenty- fIve percent sold steroids to pay for their own. Eighty-two
 percent of CUITent users (but only one former user) disagre with medical expens and
 professional athletes who have said steroid use can cause serious health problems. At the same
 time, many former and CUITent users repon physical changes in themselves that they attbute
 directly to their steroid use: bloated appearance (75%), shrinkng testicles (61 %), breast
 development in males (42%), breast reduction in females (50%), bone/joint pain (28%),
 diffculty sleeping (22%), frequent urge to urinate (17%) and nosebleeds (10%). Finaly, 87
 percent of CUITent users agree the bad effects wil go away as soon as use is stopped, but only 41
 percent of former users agree the effects go away.

           Experts also link steroid use to other serious psychological effects.

 Other possible adverse psychological effects of steroid use include increased irrtability, violent
 behavior, depression , mania, psychosis, and suicide (or attempted suicide). All of these are to
 some degree linked to steroid use in the opinion of our physician/researcher group. They believe
 there are strong links, for shon-term and long-term use, to increased irtability and violent
 behavior. Depression is strongly connected by them to long-term use. Psychotic 
      dlor manic
 symptoms and suicide are linked, with no consensus in degree, to both shon and long-term use.

  Similar to addiction , evidence does exist in literatue to suppon a real possibilty that steroids
  cause other psychological effects. Drs. Harson Pope and David Katz questioned 41
  bodybuilders and football players who had used steroids (10). Having no histories of past
  psychiatrc diffIculties, five subjects met the criteria for psychotic episodes and 5 for manic
, episodes during periods of steroid use. No subject descrbed comparble behavior-when they
  were not using steroids. Dr. Mark Humben found a relationship between steroid use and mood
  states (11). Mood scores of athlete users changed signifIcantly after 4 weeks of st Joid,use and
. approached pretest measurs 4 weeks after discontiuing                                use. Whle using steroid , athetes
 reponed to Humben a decrease in vigor and increases in hostility, anxiety, confusion , depression,
 and fatigue.

 Users repon indications of adverse psychological effects. Fifty-one percent k?d;J.ilOre arguments
 or physical fIghts while using steroids. Twenty- fIve percent repon doing serious damge to
 propeny or a person either in anger or " for fun . Someties they were very sad (28 %); 3 users
 even seriously considered suicide. Finally, 6 of the 17 former users say one of the main reasons
 they stopped was they experienced undesirable behavioral or emotional effects.

          Key informants link several negative physical health effects to steroid use.

We asked our physicians/researchers about links between steroid use and physical health
problems just as we asked about psychological health problems. With the same qualifIcations
described on page 9, they do believe adverse physical health effects stem from steroid use. For
both long-term and shon-term use they consistently see strong linkages between steroids and
acne, fluid retention , gynecomastia (breast development in males), masculinization in females,



                                                                            page 11

 reversible sterility (males), incrased LDL (bad cholesterol), decreased HDL (goo cholesterol),
 and high bloo pressure. They also perceive strong links between long-term use and baldness,
 increased chance of injury to muscles, tendons and ligaments, and liver problems. They see no
 link between shon -term stero d use and permanent sterility in males.

 For other physical health effects, expen opinion is somewhat less cenan.         ough there is no
 consensus as to the degr of linkage, they do perceive links between shon- and long-term
 steroid usage and sexual problems/impotence, stunted growth and prostate problems. The same
 is true for their opinion of shon-term use and incrased chance of injur to muscles, tendons and
 ligaments and Ilver problems. For long-term use, they see links, without a consensus on degree,
 to cardiovascular disease, kidney problems and cancer. No consensus emerged for long-term
 steroid use and possible links to permanent male sterility, or for any linage between  roid use
 and accelerated aging of the skin or immune system problems. '

 Despite the dear of research on the effects of steroids, a fInal thought offered by a key
 informant is noteworty:

              These drugs are too powerfl not to have some daging effects
              associated with long-term use, and it is imprudent to assume that
              athletes are immune to the deleterious effects that are seen in
              animals. (3)


 Experts Recommend Education Of Adolescents And Adults As The Best Solution To The
 Steroid Use Problem.

       Key infonnants do not believe adolescents are well aware of the risks of steroid use.

' Adolescents ar not perceivedas knowledgeable about the potential dagers of steroids:
 Two- thirds of our key inormts believe junior high school students ar " somewhat unaware
 (33%) or " very unaware" (33%) of the potential risks of steroid use. They rate senior high
 school students '   knowledge better with 27 of 30 key informantssayig the older students are
   somewhat aware " (47%) to " somewhat unawar" (43%).       Terney and McLai refox;d nearly
 55 percent of the high school students they surveyed were not awar of the medical risks
 associated with steroid use (12). Johnson et al. found 22 percent of male, high-school users did
 not know of any  complications associated with steroid use (13).

 Our users, with an average age of 20, know more about the medcal risks of steroid use than the
 above subjects. All could name at least the serious health problems medcal expert and
 professional athletes say may be caused by steroids. Two-thirds could name more than thee
 health problems.




                                                page 12

      Knowledge of potential health risks alone is not a deten'ent to steroid use.

A frustrting aspect of adolescents ' knowledge of steroids is that, even when they ar aware of
potential health risks, that awarness does not deter steroid use. Eighteen of 30 key informants
rate knowledge of risks as ineffective in stering adolescents away from the drgs. The primar
reason given is the general tendency for incrased risk- tag    by adolescents  the " it can
happen to me" syndrome. Other impottt reasons offere by our key informants ar adolescent
perceptions that the rewar of steroid use outweigh the risks and that the medcal community
was wrong previously in saying steroids don t work.

The medical community s loss of credibilty is impottt when discussing adolescent steroid use
and possible strategies for deterrng use. Pror to 1984 , expert repeatedy denied, based on
mixed results from earlier steroid studies, that steroids enhanced performance. In 1984,
however, the American College of Spons Medcine revised its position on steroids to say that
concurrent use of steroids with proper trning and diet may enhance performance. Also in 1984
Haupt and Rovere reviewed the steroid literatu and concluded that :msistent improvements in .
muscle strengt and size could result frm steroid use in athetes who followed proper training
and dieta regiens. Many physicians and scientists, however, sti insiste any weight gained
while takng steroids was maily the result of fluid r tention and that any strengt gain was
largely psychological.

As we mentioned earlier, 82 percent of current users diagr with medcal expens and
professional athletes who say steroid use can cause serious health problems. They disagree
because neither they, nor other users they know, are experiencing health problems. Many also
cite the lack of " hard evidence " to back up warngs (56%), their suspicion the warngs are
merely scar tactics (38%) and previous statemepts by expert who say steroids don t work
(27%). In shar contrast, 16 of 17 former users agr with the expert that steroid use poses
serious risks. Actualy experiencing the negative he;vtO effects was a strong motivation for over
half the former users to stop tang steroids.

     Nevertheless, experts say educaton is 'the most effective means of deterrng steroid use.

Nineteen of 28 key informants say that, ovemH, ooucation is sti the most effective means of
deterrng steroid use among junior and senior high school students. The adolescents themselves
are mentioned most often by key informants as the appropriate taets of the educational effon.
However, they say coaches, trners, and parents should also be included Only one former user
repons disapproval by a coach or parnt as a reason for stopping steroid use. Whether the adults
didn t object to the steroid use or the objection was not hear seems imaterial next to fact that
adults apparently ar not playing as strong a role as they could in deterrg use. Education was
also suggested for other school personnel and health care professionals, including physicians.

Coaches should be a specifIc taget group for education accordng to literature and key
informants. Coaches have special influence on a young person s life, yet sometimes they do not
appear well informed or alen to the steroid problem. In 1988 Dr. E. James Swenson et al.
published a surey of 474 high school varsity coaches (14). The coaches did not generaly



                                             page 13

           gy 



consider steroid use to be a problem, with only 11 percent to 14 percent (for different school
years) reportng some use among their athletes. This incidence rate is the inverse of the result
reponed by Buckley et al. who found evidence of use at 85 percent of their sample schools.

Swenson et al' also reponed that, although about 70 percent of coaches felt informed about
steroids, may, in fact, had misconceptions. . For example, 45 percent felt steroids are effective in
preventing injur. While most coaches would look for strngth increase as an early sign of
steroid use, less than half would look for intabilty or fluid retention. 10 Thus, most coaches
would be more liely   to miss the early signs of steroid use. The researhers concluded the
coaches were most likely uninformed and unaware of the tre incidence of steroid use, but
commented that possibly the coaches did not want to know the extent of the problem, as " it may
cause them to tae action that would effect their win- loss reord.

      Honest, early, repeated, and clear messages improve steroid educaton      programs.


If steroid education is imponat but currnt effort ar not deterrng steroid use, then what makes
a steroid education progr more effective? Our key informants say, more than anything else,
we should tell adolescents honestly what we do and do not know about the effects and risks of
steroid use. Scare tactics and continuing to say that steroids do not work are major en-ors
because of the prior loss of credbilty by the medcal community and because adolescents know
that steroids do work for the goals they have in mid, namely improved strngt, muscularty
and appearce.

We also need to recognize for educational puroses that adolescent steroid users ar, in
sociological terms, a " deviant sub-cultur. " Users are so secetive that some athetes would
rather confess to cocaine use than to steroid use (3). , lnfpnnation about the drawbacks of use that
comes from outside this cultu has litte influence on its members. In fact, in the past, the
varous educational and preventive measurs s_eem 10 have been effective only in curling drg
use to a degre, if at all , and drving it furer underground-(l5). Our users say people who
motivated them to use steroids and provide informtion about the drgs are preomiantly their
school and       frends. Johnson et al. suggest that, since peers provide a major soure of
information concernng steroids, peer advice and educ tion, which has been used effectively in
other settgs, may provide an effective interventiQ'. to   lit   steroid use (13).


Another strtegy for improving the effect of steroid education is to deliver the message " early
and often. " As we have discussed, the data show that some adolescentS sta steroids at young
ages and continue though high school. This suggests that junior high school or earlier is an
appropriate time to begin steroid education. In addition, one educational session wil probably
not be a deterrnt according to Dr. Linn Goldberg et al. (16). They assesse the steroid
knowledge and atttudes of six varsity high school football team before and after an education
intervention. Four teams were included in the intervention and two teams were controls.
Although students showed increased awareness of the adverse effects of steroid use afer the
education progr, no differences in atttudes toward steroid use occured as compard to the
controls.




                                               page 14

                                                                                                      - .




Simply supplying informtion about steroids is not enough. Dr. Mimi Johnson summzed a

study by Gordon and McAlister which said that informational approaches to drg and alcohol

use in the school systems have failed with no apparent decrase in use (8). " It is felt that these

approaches do not address the reasons teenagers use the chemicals. " Key informts and the

National Consensus Meeting of Anabolic/Andrgenic Steroids (17) agr regarding steroid

education. They suggest an education progr should:


                 clearly and consistently send a message from coaches, parents, educators and
                 physicians that they don t want adolescents to use steroids.

                 help adolescents develop realistic expectations and goals for themselves and
                 alternatives to steroid use, such as improved weight trning methods, n.utrtion
                 or training techniques,

                 advocate and encourage social suppon for      using steroids, including a
                                                                       not

                 de-emphasis of winning at all costs and the socialmoneta rewards attached to
                 wmmng,

                 encourage positive role modeling by elite and professional athetes,

                 emphasize the moral and ethical aspects of steroid use, i.e., steroid use is
                 cheating and destroys fai play.





Testing And Controlled Substance Status Are Potential Deterrents To Non- Medical Steroid
Use.

       Most key'infor;nants would favor drug testing as a deterrent were it not for high costs.

Many key informants would advocate testing as a deteITnt to adolescent steroid use, but cost is
a serious drwback. Twenty of 30 say, if cost were not a factor, they would advocate a large or
moderate deterrnt role for drg testig. When the 20 key inormants considere cost, 16 then
withdrw their suppon of steroid testig, sayig it should have a sma role or no role. Dr.
Roben Voy, former diector of spons medicine for the United States Olympic Commttee, has
said regardig testig and subsequent sanctions,

             Some risk has to be associated with (steroid use).... Drug education in
             and of itself wil not work. Without testing nobody's going to listen to
             education. The penalties don t have to be draconian, but there must be
             some penalties. (18)

The National Consensus Meeting of Anabolic/Androgenic Steroids parcipants went so far as to
recommend encourging the liabilty insurace industr to develop coverage for schools ' drg
testing progrs in order to make drg testig more readily avaiable at all levels of athletic



                                                            page 15

competition (17). They also suppon drg testing as an effective deterrent, but only in
conjunction with a comprehensive progr of education and rehabilitation.

Our key informants and other expens ar also concerned about what constitutes an effective drg
testing progr. They say the essentials of a testing progr ar unannounced, random test
times (possibly year-round and for all team members), assurances of accurcy, rehabiltation or
counseling progrs for " positives " and defInite, pre- determned crteri for who wi be tested.
Many of these essential elements ar expensive, plus, these elements and others rase legal and
philosophical issues. In fact, the National Collegiate Athletic Association (NCAA) was legally
challenged on these issues after their drg testig program went into effect in the fall of 1986.

While expert say radom , unannounced testing is tlYe only sur way to detect drg abuse, it is
also one of the most controversial points. " It may be that random testing is appropriate for
athletes at some level of competition, but not for others. " (18) Furter, the timing of drg testing
corresponds poorly with drg taing and a signifcant number of users don t face drg testing at
all (3). On the issue of accuracy, access to qualfIed laboratories is a problem. The advanced
International Olympic Committee (lOC) testig techniques aren t available everywhere, and
some believe " there s a clear dierence in testig abilties between the lac approved
laboratories and private, commercial laboratories. " (19)

Nine key informts opposed a substatial role for drg testing as a deterrnt to steroid use even
if cost were not a factor. Besides questioning the accurcy of testig, they also object to testing
as an invasion of privacy, and a discrmiatory practice that singles out one drg population.
They also believe education is more imponat than testing.

      Limiting the 
   upp()' could help control non-medical steroid use.

Data on the growth of steroid use and the possible health consequences has produce effons
shut down the steroid supply for non-medcal use. The key inormants believe the      priar
steroid sources for young users ar peers and drg deers, maiy in a commercia
setting.
         ll Users
                  agr while adding pharacists (31 %) and ma order sources (28%). In
November 1990 the Congrss addressed the problem of non-medcal steroid use by scheduling
them under the Controlled Substaces Act, makng it ilegal under Federa law to distrbute and
possess steroids without a prescription.

Twenty-one of 30 key informants and other expert see benefIt in controllng steroids. The key
informants believe controllng steroids holds physicians accountable for the drgs they prescribe,
limits the supply of steroids manufactured in this countr, and allows imposition of strcter
penalties for use violations. Because of the record- keeping required, other expens believe
diversion of supplies from legitimate domestic maufacturs (theft, resale by consumers, fIling
of fraudulent prescrptions)(4) to black markets wil be harder (20).

Some key informants and other expens doubt scheduling wil have much effect on the black
market (20). For example, according to the Deparent of Justice, besides diversion from
legitimate manufacturers, other sources of black market steroids are clandestinely manufactured
goods, including counterfeits, and smuggled products (4). Other enforcement effons, however,


                                               page 16

appear to limit these black market sources. For example, during the 6 months the OIG had
authority to conduct investigations of ilegal distrbution of steroids, 25 arsts and convictions
resulted. Besides diversion of steroids from legitimate domestic manufacturers, OIG
investigators identifIed criminal activities of counterfeiting brand-name steroids, smuggling
steroids into the United States and domestic underground. laboratories.

Sixty-thre percent of our users saysteroids ar becoming harder to obtan. However, the
perceptions of our key informants concerning the steroid supply var widely. Some key
informants believe all steroids are harder to obtan; others say high qualty or real
(non-counterfeit) steroids are more scarce. Of the 12 sayig steroids ar more scare, the
majority believe restrctive state laws and incrased enforcement ar the causes. An additional
concern is that a declining supply is temporar, parcularly if illcit drg dealers are including
steroids in their operations.




                                              page 17

. .




                            RECOMMENDATIONS

      Overall, our key informants, steroid users and literature review indicate that no single approach
      wil solve the problem of adolescent steroid use. Rather, a solution lies within a strategy to
      improve education for adults as well as adolescents and to conduct additional medcal and
      scientifIc research.


      Develop A National Steroid Education Strategy

      The Public Health Service is currently developing a national strategy for addressing the problem
      of non-medcal steroid use. We recommend that it include          following elements: a national
      public awareness campaign using credble spokespeople, addition of steroid information to drg
      education currcula on al levels and issuance of guidelines for effective steroid education
      intervention at the local level. We also recommend aggressive testig by the NCAA , National
      Footbal League and other amateur and professional spons associations to promote steroid- free
      athletic competition at the college and professional levels, as this should have a signcant
      educational impact on adolescents.

      Key informants believe that education is the most effective means of deterrng steroid use even
      though it doesn t always work. Education involves more , however, than merely presenting
      information about the effects of steroids to adolescents. The educational tagets should include
      coaches, trainers, parents and medical professionals as well as adolescents. The educational
      message for adolescents must come early and be reinforced often in an honest, consistent way
      from their peers and responsible adults. We must find ways to overcome adolescent resistace to
      the message based on their own sense of immonaity, the high degree of secm;y involved in
      steroid use, and the previous loss of crbilty by the medcal communty. Finaly, the
      educational intervention must be talored to several audiences     the responsi1?le' adult vs. the
      adolescent, the potential user vs. the curnt user, the appearce   user vs. the athetic user, the
      non- dependent user vs. the dependent user in conjunction with rehabiltation nee.


      Conduct Further Medical And Scientifc Research

      The Deparent, though the Public Health Service, should tae the Federal lead in conducting
      medical and scientific research on steroids. Curnt understading of the racations of
      non-medcal use of steroids is very limited. A pressing nee exists to accurtely identiy the
      potential adverse health effects of shon-term and long-term steroid use, parcularly for
      adolescents. Such research should focus on adverse physical and psychological effects,
      especially, the risk of addiction. Because of the secrey surounding steroid use, innovative and
      unconventional researh methods may be reuired. Another imponant need is to expand the
      available information on trnds in the incidence and prevalence of adolescent steroid use and
      information on the knowledge, atttudes, beliefs, use patterns and motivations of adolescents.
      Continued, or even expanded, coverage of steroids in the NIA annual surey of high school
      seniors is one means of buildig useful trend data on adolescent use.


                                                    page 18

                                  COMMENTS

We received comments on the draft repon from two Deparent of Health and Human Services
entities - the Office of the Assistant Secretar for Planning and Evaluation and the Public Health
Service. Our responses to their technical comments as well as the full text of their comments
in Appendix E. Public Comments are in Appendix F.


Offce of the Assistant Secretary for Planning and Evaluation (ASPE)

The ASPE agreed with the repon. In paricular, they think " the repon s highlighting of the fact
that steroid use is motivated by socially acceptable values is very benefIcial and should
contrbute to bringing this factor to the attention of those developing educational materials.


Public Health Service (PHS)

The PHS generally agred with the findings     and recommendations of the report    They believe
                           -ecommeridations would be inappropriate since the Interagency
hasty implementation of the 


Task Force on Anabolic Steroid Abuse, in which they ar active pancipants, has not fmalized its
repon and recommendations for steroid regulation/enforcement, prevention/education , and
research. The PHS specifIcally notes that while we stressed the PHS role in an education
campaign, " it is imponant to recognize that any effon in this area wil require coordiation
across Depanments.

We agree with the PHS. In addition, we appreciate the opportunity they provided us to present
our findings to the Interagency Task Force on Anaolic Steroid Abuse and to review the draft
reports from the Task Force sub-committees on preventon/education and research. Their
proposed activities match our recommendations. Like the PHS we believe a well-planned and
coordinated approach to the problem of adlescent steroid use should take into account the
work, now underway, of the Task Force. In addition, after we issued our draft report, Congress
passed the Anabolic Steroids Control.Act of 1990. Besides making steroids a controlled
substance, this Act amend the Public Health Service Act to include the development and support
of " innovative demonstration program designed to identify and deter improper use or abuse of
anabolic steroids by students, especially students in secondary schools. " The implementing
regulations are not yet written, but obviously these demonstration programs must also be
considered in the Department s steroid prevention/education and research strategy.




                                              page 19

                                                      ENDNOTES

 1. Refers to the end of a long bone (epiphysis) composed of cartilage or separated from the

       bone shaft by a disk of canlage; after the period of growth, bone tissue replaces the

       cartilage at the epiphysis to form a single bone with the shaft.


 2. Each     controlled drug is on one of fIve schedules depending on its potential for abuse and
       dependence. Schedule I drgs have the highest abuse potential and no accepted medical
       uses, e. g. heroin. Schedule ill includes, besides steroids, stimulants, depressants, and
       narcotic drgs like codeine. Penalties for the ilegal possession or distrbution of scheduled
       drugs are prison sentences and/or fInes.

       83,430 = 3% of 2, 781 000    the estimated number of graduates in the Class of 1989,
       according to the U. S. Depanment of Education.

 4. Computed from 1989 enrollment data from the U. S. Depanent                          of Education and NIDA

       data on incidence of fIrst steroid use by grade (see Appendices C and D).


 5. We
       or longer.
           collected data only from those usersrwho had completed 	               at least   one cycle of six weeks


 6. NIDA reponed for the Class of 1989 that the lifetime prevalence of use was 90. 7% for
   . alcohol , 43. 7% for marjuana, 19. 1 % for amphetamines, 18. 6% for inhalants, 10.3% for
       cocaine and 8. 3% for LSD.

 7. For    similar and/or compatible results-fiom' ot..her work , see Goldstein (29), and Fuller and

       Lafountain (27).


 8. The American Psychiatrc Association s DIagnostic and Statistical Maual                        of Mental
       Disorders (DSM- ll- R). Examples are withdrawal symptoms, contiued use despite
       problems from use, more drg taen than intended, large                    tie
                                                                 expenditure on drg-related
       activity, usual activities replacecl by drug use, unable to cut down or control use.

 9. Also see Pope and Katz (31) for a smaller case study in violent crimes linked to steroid use.
10.	   A complicating factor is steroid use may increase aggrssiveness and tolerance of stress,
       both positives for some competitive sport.

11. According      to Buckley et al. (2), Yesalis et al. (37), and Frankie et al. (26) the major source
       of steroids for non-medical use is the black market.




                                                                      page 20
                                 ,, "" , "                            , "





                                                   BIBLIOGRAPHY

A. PRIMARY


       . National Institute on Drug Abuse, Epidemiology Research Brach, Floor 11A, Parklawn
        Building, 5600 Fishers Lane, Rockvile, MD 20857 by        to the Institute for Socialgrt
        Research , University of Michigan, Ann Arbor, MI.

 2. Buckley, Wiliam E. et al., "Estimated Prevalence of Anabolic Steroid Use Among Male

        High School Seniors, The Journal pfthe American Medical Association vol. 260, n. 23,

        pp. 3441- 3445, December 16, 1988.

 3. Cowar, Virginia, " National Institute on Drug Abuse May Join in Anabolic Steroid

        Research            The Journal of the American Medical Association, 
                       vol. 261 , n. 13,

        pp. 1855- 1856, April 7, 1989.



4. United States General Accounting Offce, "Drg                                        Misu e: Anabolic Steroids and Human

        Growth Hormone, " GAO-HR- 89- 109,                                   1989.



5. Boyea, Steven et al.        Ergogenic Drg Use Among High School Athletes: A Three Year

        Sequential Study, " abstract of work accepted for pr sentation at the annual meeting of the

        American College of Spons Medicine, May 1990.


6. Yesalis, Charles E. et al., " Anabolic Steroid Use: Indications of Habituation Among

        Adolescents,            Journal of Drug Education, 
                     vol. 19(2), pp. 103- 116,   1989.



7. "   . Bruvver,Kik J. Rehabiltation for Anabolic- Androgenic Steroid Dependence, " based Q"!Hl:"":"
        paper presented at the National Consensus Meeting on Anabolic Androgenic Steroids, Los
        Angeles, CA , July 30- , 1989.

8. Johnson, Mimi                     Anabolic Steroid Use in Adolescent Athetes, " scheduled for publication
        in   Pediatric Clinics of North America,                         vol. 37, n. 5, October 1990.

9. Brower,             Kik J. et al., "Physical and Psychological Dependence on Anabolic-Androgenic

        Steroids, " Deparment of Psychiatr, University of Michigan, Ann Arbor, MI, for the

        Workshop Conference on Androgen Therapy: Biologic and Clinical Consequences

        sponsored by Penn State College of Medcine, Marco Island, FL , Januar 17- 20, 1990.


10. Pope, Harson G. and David L. Katz       Affective and Psychotic Symptoms Associated with
        Anabolic Steroid Use, American Journal of Psychi,!tr, vol. 145, n. 4 , pp. 487- 490, April
        1988.




                                                                             page 21
                                  , ," " , "	                 , "





 11. Humben, Mark      D., "Psychological Effects of Self-: Administered Anabolic Steroids on Male
       Athletes: Hostilty, Depression, Vigor, Fatigue,  Anxiety and Confusion " doctoral
       dissenation , United States International University, San Diego, CA 1990.

12. Terney, Rise and               Lar McLain, "The Use of Anabolic Steroids in High School Students,
       Loyola University, May 1988; published in 
                    American Journal of Diseases of Children,
       vol. 144 , Januar 1990.

13. Johnson,     Mimi et aI. Anabolic Steroid Use by Male Adolescents,                           Pediatrics,   voL 83, n.
       6, pp. 921- 924 , June 1989.

14. Swenson , E. James et aI., " Perspectiveson Anabolic Stero ds: Survey of High School

      Varsity Football Head Coaches, " Deparment of Family Practice, Michigan- State

      University, a paper of 40 pages, May 1988.


15. Wright, James E. and Michael H. Stone	                       Anabolic Drg Use by Athletes Literature

      Review " position paper on anabolic drg                    use by athletes, National Strength and

      Conditioning Association , 1985.



16. Goldberg, Linn et al., "Effect of an Anabolic Steroid Education Program on Knowledge and
    Attitudes of High School Footbal Players, Journal of Adolesce t Health Care, 
 vol. 11
    n. 2 , March 1990.

17. Repon of the National Consensus Meeting of Anabolic/Androgenic Steroids, July 30­
    1989, Los Angeles, CA , sponsored by the USOC, NCAA , National Federation of State
    High School Associations and the Amateur Athletic Foundation of Los Angeles.

18_        war, Virginia, "Drug Testing Programs Face Snags and Legal Challenges, The
      Physician and Sportsmedicine, 
 vol. 16, n. 2, pp. 165- 172 , Februar 1988.

19. Cowar,          Virginia, " Reflections on the Medcal Aspects of the 1988 Olympic Summer
      Games,        The Physician and Sportsmedicine, 
 vol. 16, n. 12 , pp. 118- 123, December 1988. ­

20. Cowar, Virginia, "Would Controlled Substace                         Status Affect Steroid Trafcking?"         The
      Physician and Sportsmedicine, 
                vol. 15, n. 5, pp. 151- 154 , May 1987.


      SUPPLEMENTAL

21.. . Amsel , Zili et al.            Anabolic Steroid Use Among Male High School Seniors - To the Editor,
      The Journal of the American Medical Association, 
           ol. 261 , n. 18, p. 2639, May 12 , 1989.

22. Costill , D. L. et aI. Anabolic Steroid Use Among Athletes: Changes in HDL- C Levels,
      The Physician and Sportsmedicine, 
                 vol. 12 ,   n. 6, pp. 113- 117 , June 1984.




                                                               page 22
                                      ,"                    , "





23. Cowan, Virginia, "Physician- Competitor                                            s Advice to Colleagues: Steroid Users Respond to
        Education , Rehabilitation The Journal of the American Medical Association, 
                                      vol. 257,
        n. 4 , pp. 427- 428, Jan 23/30, 1987.

24. Cronin ,               Bar, " The Steroid Menace                                Chicago Sun-Times        special reprint, Februar 1989.

25. Duda,                 Mar, " NCAA: Only 4 Percent of Athletes U                                  ed Steroids, The Physician and
        Sportsmedicine,                 vol. 13, n. 8, p. 30, August 1985.

26. Frakie, Mark                 et al., " Use of Androgenic Anabolic Steroids by Athletes - To the Editor
        The Journal of the American Medical Association, 
            vol. 252, n. 4 , p. 482 , July 27, 1984.

27. Fuller, John R. and Marc LaFountain; "Performance- Enhancing Drugs in Spon: A
        Different Form of Drug Abuse,                                Adolescence,              vol. XXII , n. 88, pp. 969- 976,    Winter 1987.


28. Goldman, Bob,                      Death in the Locker Room, 
                       The Body Press, Tucson , AZ , 371 pages, 1984.

29. Goldstein , Paul       Anabolic Steroids: An Ethnogrphic Approach " Narcotic and Drug
        Research , Inc., a paper of 36 pages, submitted to NIDA )989.

30. National   Institute on Drug Abuse, agency contact for steroid issues: Lynda Erioff, Ph. D.,
        Room 10A- 31, 5600 Fishers Lae, Rockvile, MD, 20857.

31. Pope,      Harson G. and David Katz, "Homicide and Near-Homicide by Anabolic Steroid
        Users,                              vol. 51, n. 1 , pp. 28- 31, Januar 1990.
                          Journal of Clinical Psychiatry,




32. Pope,             Harson G. et al., " Anabolic- Androgenic Steroid Use Among 1010 College Men,
        The Physician and Sportsmedicine, 
         vol. 16, n. 7, pp: 75- , July 1988.

33. Struss, Richard H. et al., " Anabolic Steroid Use and Perceived Effects in Ten
       Weight-Traned Women Athetes, The Journal of the American Medical Association,
       vol. 253, n. 19, pp. 2871-2873, May 17, 1985.

34. Taylor, Wiliam N., " Synthetic Anabolic-AruiIogeJ.iic Steroids: A Plea for Controlled
        Substace Status,                    The Physician and Sportsmedicine, 
                         vol. 15, n. 5, pp. 140- 150, May 1987.

35. Telander,  R. and M. Noden The Death of an Athlete,                                                 Sports Illustrated,
   vol. 70, n. 8,
       Februar 20, 1989.

36. Windsor,     Roben and Daniel Dumitr, "Prvalence of Anabolic Steroid Use by Male and
       Female Adolescents,                                            vol. 21 , n. 5,
                                                 Medicine and Science in Sports and Exercise, 


       pp. 494- 497, Februar 1989.

37. Yesalis, Charles E. et al., "Incidence of the Non-Medical Use of Anabolic- Androgenic
       Steroids, " a paper submitted to NIDA , 1989.




                                                                                     page 23
                                                        - -.   .




Simon McNeely, Secretary-Treasurer
Society of State Directors of Health, Physical Education and Recreation
9805 Hilridge Drive

Kensington , MD 20895


Robert E. "Skip "      Morris, Executive Oirector
National High School Athletic Coaches Association
 O. Box 941329
Maitland, FL 32794


Dick Stickle, Executive Director
National Federation TARGET Program Inc.
11724 Plaza Circle
 O. Box 20626
Kansas City, MO 64195

            Professional           da:   Affiliate of National Federation of State High
            School Associations .



Frank Uryasz

Director of Spons Sciences
National Collegiate Athletic Association (NCAA)
6201 College Boulevard
Overland Park , KS 66211


Paul Zeek
Lamar University
 O. Box 10115
Beaumont, TX 77710

            Professional data: 
         Acting Executive Dirctor, National Athletic Tra­
            ers Association
                                                                                                     . ,





                                 APPENDIX
STEROID USER INTERVIEWS

Steroid users ar diffcult to identify and contact for interviews. We initialy tred to- complete
the interviews ourelves by instaling a toll-fre " 800" telephone number and circulatig our
request for user interviews though our key informants. This prouced only five qualifed
interviews despite assurances of confidentiality. We then contrted with    th     key informants,
Neil Carolan, Dr. James Wright and Dr. Mark Humben, to conduct in- depth interviews of steroid
users who met the crteria: 1) age 25 or younger at the tie of the interview, 2) initiated steroid
use in high school or earlier, and 3) completed at least one steroid cycle of 6 weeks or longer;
Otherwise, the interviewers judgmentally selected the users to intervew.

Seventy-tWo steroid users (55 curent   + 17 former) provided informtion about themselves by
completing a confIdential, strctured intervew of 39 questions. All intervewers captued the
self-reponed user data on the instrment we designed and pre-tested, but they did not attempt to
verify the factual accuracy of the users ' answers. All personally conducted the interviews either
face to face or by telephone.

The CUITent and former users   were 93 percent male with an average curent age of 20 and an
average initiation age of 16. They come from 10 states and frm vared settgs and locations
within those states. Dr. Wright pointed out that he visite several counties for his 11 interviews
in one state. Neither he, nor Dr. Humbert simply concentrate on one commercial gym which
caters to " hard core " bodybuilding and weightliftng trning. Mr. Carolan, a substace abuse
therapist interViewed users who were refe1Ts from other drg counseling progrs, curnt
clients, and word-of-mouth contacts limited to this project. Most were parent- or self-refeITed;
none wele court-referrd.
                    APPENDIX 

             STEROID INCIDENCE OF FIRST USE
    National High School Senior Survey, Class of 1989
   Sponsored by the National Institute on Drug Abuse

Grade                     Total               Male             Female

6 or below                                     0.3              0.2

7 to 8                     0.3

                                                                0.4

                                                1.0

                                                1.0             0.4

                                                1.0

Never Used               97.                  95.3             98.


*For further infprmtion. contact Chief. Epidemiology Research Branch. National
Institute on Drug Abuse, Floor 11 A. ParklawnBuilding. 5600 Fishers Lane,

Rf/ckvile, MD 20857.




                                    C - 1

' ,





                                                    APPENDIX D

         ESTIMATE OF STUDENT STEROID USE BY GRADE

        If we assume that the incidence of fIrst use for the Class.of 1989 is typical (see Appendix C),
        then we can estimate student steroid use by grade. Using enrollment data from the U.
        Deparent of Education, we calculate, that in the 1989 school year approximately 97, 000
        students tred steroids for the fIrst time and that by the end of the 1989 school year
        approximately 262 000 students in grades 7 to 12 used or had used steroids.

        Grade/Class                          % First Use                    # Students                    Cumulative         Cumulative
        # Enrolled                           By Grade                       First Use                     School Year        All Grades
                                                                            By Grade

              or below                                                            354*
                 353, 837 (grade 6)

              to    8 -   Class of'                                               800                       13, 154               13, 154
                 293, 000 per class
               (approximate)

       9 -         Class of                     0.5                          17, 821                        30, 975                   129
                    564 104

       10 	         Class of'                                                16, 657 .                      47, 632                   761
                    331 358

       11 -	        Class of '                                               25,293                         72, 925             164 686
                    161, 609

       12 -	        Class 0/'                                                     172                       97, 097             261 783
                    021 532

       *Based on enrollment data for grade     6;   data for incidence of first use by grades 1 through               individually is nor
       available.




                                                                         D-1
. '!               ...




                                                     APPENDIX 

       PUBLIC COMMENTS

       Charles E. Yesalis, Sc. D., Depanment of Health Policy and Admnistrtion,                     Pennsylvania      State
       University, is a nationally recognized steroid researcher. Below ar                   excerpts from a   letter he
       wrote us after he reviewed the draft repon.

                   Overall the reports are well done and represent a valuable contribution
                   to the literature. I do, however, have a concern with the report's conclu­
                   sions on strategies to deal with this problem. Once again the central
                   focus appears to be directed at the education of users or potential users
                    of anabolic steroids. Much less attention is given to our social environ­
                    ment which, in my opinion, gives strong signals to our children to use
                    these drugs. Your report states that anabolic steroids are not mood al­
                    tering at the time of administration. You fail, however, to proceed to
                   what I believe is the only logical conclusion: the appetite for these
                   drugs ha been created by our fiation on sport and physical appear-
                   ance. Children do not have an 
 innate desire to look like Mr. Universe
                   nor do they        by nature play games for the sole purpose of winning
                   teach them this. Our youngsters look around and see numerous exam­
                   pIes, both inside and outside of sport, of win at any cost, winner take
                                                                wil help you win and they
                   all, and bigger is better. Anabolic steroids 


                   wil make you bigger.

                     Our children are influenced by the adulation offans and material re­
                   wards which often accompany success at the Olympic, collegiate and
                   professional levels of sport. Moreover, because of reports in the news
                   media as well as written and verbal testimonials by athletes, adoles­
                   cents are 
    aware of the role anabolic steroids play in the success of
                   many so called role-model athletes.

                   Although the report acknowledges that anabolic steroids are capable of
                   enhancing strength, size and capacity to train, the report once again
                   stops short of an obvious conclusion:        do not use these . drugs, all
                                                                             if you

                   else being equal, YOU WILL NOT WIN AS OFTEN.... This conclusion
                   also has signifcant implications for strategies to solve the. problem of
                   steroid use among adolescents. If coaches are not wiling to say with
                   sincerity to their athletes, My opposition to steroids is so great that I
                   am wiling to lose every game rather than have any of you use steroids.
                   this problem wil continue. Ifparents, athletic directors and principals
                   are not wiling to support such a stance by coaches, this problem wil
                   continue.

                                                                       F - 1

